                c 

                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 




                        American Recovery and
                        Reinvestment Act Site Visit of
                        Wastewater Treatment Plant
                        Improvements Project,
                        City of Nappanee, Indiana
                        Report No. 12-R-0789               September 12, 2012




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:                               Jean Bloom
                                                   Shannon Schofield
                                                   John P. Flynn
                                                   John Burns




Abbreviations

CFR             Code of Federal Regulations
EPA             U.S. Environmental Protection Agency
IFA             Indiana Finance Authority
OIG             Office of Inspector General


Cover photo:	     Digester building and drying shed at Nappanee, Indiana,
                  Wastewater Treatment Improvements Plant. (EPA OIG photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                       write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              12-R-0789
                                                                                                    September 12, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              American Recovery and Reinvestment Act Site Visit
                                    of Wastewater Treatment Plant Improvements Project,
The U.S. Environmental
Protection Agency, Office of        City of Nappanee, Indiana
Inspector General, conducts
site visits of American              What We Found
Recovery and Reinvestment
Act of 2009 (Recovery Act)          In September 2010 and May 2011, we visited the Wastewater Treatment Plant
clean water and drinking water      Improvements Project in the City of Nappanee, Indiana. As part of our site visit,
projects. The purpose of our        we toured the project, visually inspected equipment and materials, interviewed
visit was to address a hotline      IFA and city officials and their employees, reviewed manufacturers’ substantial
complaint involving compliance      transformation supporting documentation, and reviewed documentation related to
with the Recovery Act’s Buy         Buy American requirements.
American requirements. The
city received a $4,875,000 loan     We noted in our draft report 7 of 32 instances where the city could not
from the Indiana Finance            demonstrate compliance with Buy American requirements as set out in Section
Authority (IFA) under the           1605 of the Recovery Act. In response, the city provided documentation and
Indiana Wastewater State            agreed to take corrective actions to replace two items with products that meet the
Revolving Fund Loan Program.        Buy American requirements. We agree that six of the seven items now comply
The loan included $1,769,000        with the requirements. For the one remaining item, the city could not demonstrate
in Recovery Act funds. The city     that it was manufactured in the United States, as required by the Recovery Act.
used these funds to rehabilitate    As a result, the project is not eligible for the $1,769,000 of Recovery Act funds
and improve its wastewater          authorized by the state unless the U.S. Environmental Protection Agency
treatment plant.                    exercises a regulatory option.

This report addresses the
                                     Recommendations and Planned Agency Corrective Actions
following EPA Goal or
Cross-Cutting Strategy:
                                    We recommend that Region 5 employ the procedures set out in Title 2 of the
                                    Code of Federal Regulations (CFR) to ensure compliance with the Buy American
 Protecting America’s waters       requirements. If the region decides to retain the foreign manufactured goods in
                                    the Nappanee project under 2 CFR §176.130 (c)(3), the region should either
                                    ”reduce the amount of the award by the cost of the steel, iron, or manufactured
                                    goods that are used in the project or ... take enforcement or termination action in
                                    accordance with the agency’s grants management regulations.” We also
                                    recommend that the region require IFA to verify the city’s corrective actions taken
                                    and ensure the replaced items meet the Buy American requirements.

For further information, contact    Neither the region nor the city agreed with our conclusion that the documentation
our Office of Congressional and     was not sufficient to support Buy American compliance. The Agency agreed with
Public Affairs at (202) 566-2391.   our recommendation to verify the city’s corrective actions, and indicated the
                                    Agency visited the project and verified the agreed-to removal and replacement of
The full report is at:              items.
www.epa.gov/oig/reports/2012/
20120912-12-R-0789.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL




                                       September 12, 2012

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Visit of
          Wastewater Treatment Plant Improvements Project,
          City of Nappanee, Indiana
          Report No. 12-R-0789


FROM:          Arthur A. Elkins, Jr.

TO:            Susan Hedman
               Regional Administrator, Region 5


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

We performed this site visit as part of our responsibility under the American Recovery and
Reinvestment Act of 2009 (Recovery Act). The purpose of our site visit was to determine the
city’s compliance with Buy American requirements under Section 1605 of the Recovery Act
pertaining to the Clean Water State Revolving Fund program. The Indiana Finance Authority
approved the city’s project. The city received a $4,875,000 loan, including $1,769,000 in
Recovery Act funds.

Action Required

In accordance with EPA Manual 2750, Chapter 3, you are required to provide us your proposed
management decision for resolution of the findings contained in this reported before any formal
resolution can be completed with the recipient. Your proposed decision is due in 120 days, or on
January 10, 2013. To expedite the resolution process, please e-mail an electronic version of your
proposed management decision to adachi.robert@epa.gov.
Your response will be posted on the OIG’s public website, along with our memorandum
commenting on your response. Your response should be provided as an Adobe PDF file that
complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the
public; if your response contains such data, you should identify the data for redaction or removal.
We have no objection to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Robert
Adachi, Product Line Director, at (415) 947-4537 or adachi.robert@epa.gov
American Recovery and Reinvestment Act                                                                                         12-R-0789
Site Visit of Wastewater Treatment Plant
Improvements Project, City of Nappanee, Indiana


                                      Table of Contents 

   Purpose .......................................................................................................................    1


   Background .................................................................................................................       1


   Scope and Methodology.............................................................................................                 1


   Results of Site Visit.....................................................................................................         2


   Recommendation ........................................................................................................            5


   City, Region 5, and State Responses........................................................................                        5


   OIG Comment ..............................................................................................................         6


   Status of Recommendations and Potential Monetary Benefits..............................                                            8




Appendices
   A       City of Nappanee Response to Draft Report and OIG Evaluation .................                                             9


   B       Indiana Finance Authority Response to Draft Report and 

           OIG Evaluation....................................................................................................        22 


   C       Distribution .........................................................................................................    33 

Purpose

            The purpose of the site visit was to determine whether the City of Nappanee,
            Indiana, complied with Buy American requirements under Section 1605 of the
            American Recovery and Reinvestment Act of 2009 (Recovery Act), Public Law
            111-5, pertaining to the Wastewater Treatment Plant Improvements Project jointly
            funded by the Recovery Act and the Indiana Wastewater State Revolving Fund
            Loan Program. We selected the project for review based upon a hotline complaint.

Background
            In July 2009, the U.S. Environmental Protection Agency (EPA) awarded over
            $94 million of Recovery Act funds to the State of Indiana to capitalize its
            revolving loan fund, which provides financing for construction of wastewater
            treatment facilities and other authorized uses. In addition to the regulatory
            requirements at Title 40 Code of Federal Regulations (CFR) Chapter 1,
            Subchapter B, the assistance award was subject to Grants and Agreements; Award
            Terms for Assistance Agreements That Include Funds Under The American
            Recovery and Reinvestment Act of 2009, Public Law 111-5, 2 CFR Part 176
            (2010).

            On September 4, 2009, the city received a $4,875,000 loan from the Indiana
            Finance Authority (IFA), under the Indiana Wastewater State Revolving Loan
            Fund Program, to upgrade the city’s wastewater treatment plant. The loan
            included principal forgiveness of $1,769,000 in Recovery Act funds. The city
            used these funds to rehabilitate and improve its wastewater treatment plant.

Scope and Methodology
            Due to the time-critical nature of Recovery Act requirements, we did not perform
            this assignment in accordance with generally accepted government auditing
            standards. Specifically, we did not perform certain steps that would allow us to
            obtain information to assess the city’s internal controls and any previously
            reported audit concerns. As a result, we do not express an opinion on the
            adequacy of the city’s internal controls or compliance with all federal, state, or
            local requirements.

            We made a site visit on September 29, 2010. On May 16, 2011, we visited the city
            to perform additional work related to Buy American compliance. During our
            visits, we:

               1. Toured the project
               2. Visually inspected equipment and materials on site
               3. Interviewed IFA and city officials, and their employees




12-R-0789                                                                                    1
               4.	 Reviewed manufacturers’ substantial transformation documentation and
                   other documentation to support compliance with Buy American
                   requirements under Section 1605 of the Recovery Act

Results of Site Visit
            The city could not demonstrate that all manufactured goods used on the project
            met the Buy American requirements set out in Section 1605 of the Recovery Act.
            Unless the city can comply with Buy American requirements or EPA exercises a
            regulatory option, the city’s project to rehabilitate its wastewater treatment plant
            is not eligible for $1,769,000 of Recovery Act funds authorized by the state.

            In our draft report, we noted 7 of 32 instances where the city could not show
            compliance with Buy American requirements. In response, the city provided
            additional documentation and replaced two items to support compliance. We
            changed our position for six of the seven items after analyzing the additional
            document and verifying the replacement of the two items. We agreed the six items
            now comply with the Buy American requirements. For the remaining item—a
            Kaeser positive displacement blower—no additional information was provided to
            support that it was manufactured in the United States.

            The federal grant to capitalize Indiana’s revolving loan fund with Recovery Act
            funds requires that all projects use manufactured goods produced in the United
            States, unless certain exceptions apply as provided for in 2 CFR §176.60. The
            state included the Buy American requirements in the loan agreement with
            Nappanee.

            Section 1605 of the Recovery Act prohibits the use of Recovery Act funds for a
            project unless all of the iron, steel, and manufactured goods used in the project are
            produced in the United States. This regulation requires that this prohibition be
            consistent with U.S. obligations under international agreements, and provides for
            a waiver under three circumstances: (1) iron, steel, or relevant manufactured
            goods are not produced in the United States in sufficient and reasonably available
            quantities and of a satisfactory quality; (2) inclusion of iron, steel, or
            manufactured goods produced in the United States would increase the overall
            project costs by more than 25 percent; or (3) applying the domestic preference
            would be inconsistent with public interest.

            Title 2 CFR §176.140 (a)(1) defines a manufactured good as a good brought to
            the construction site for incorporation that has been processed into a specific form
            and shape or combined with raw materials to create a material that has different
            properties than the properties of the individual raw materials. There is no




12-R-0789                                                                                      2
                requirement with regard to the origin of components in manufactured goods, as
                long as the manufacture of the goods occurs in the United States.1

                There are three substantial transformation questions listed in EPA’s guidance
                document.2 Affirmative answers to the questions alone are insufficient to support
                substantial transformation. Documentation is needed to provide a level of
                specificity and detail for all relevant facts used by the manufacturer to support a
                claim of substantial transformation, including the manufacturing location and the
                manufacturing processes for the specific product and/or model number being
                incorporated into the project. Further, design, planning, procurement, or
                component production—steps prior to the process of physically working on or
                bringing together the components of the item incorporated into the project—
                cannot be considered as constituting or contributing to substantial transformation.

                Regarding the seventh item of concern, we noted 11 Kaeser positive displacement
                blowers that were labeled “Made in Germany.” Initially, Kaeser Compressors,
                Inc., provided a one-page letter claiming their equipment met the Recovery Act
                requirements. The Kaeser letter claims the company is able to comply with
                Recovery Act funding requirements “based on using assembly procedures in the
                United States as directed by the OMB (Office of Management and Budget) in
                their May, 2009 ruling.” Our
                research did not locate the May
                2009 ruling as referred to in
                Kaeser’s letter.

                As a result of a subsequent site
                visit, the city provided
                documentation from Kaeser
                Compressors, Inc., dated
                October 29, 2010, to support
                substantial transformation. The
                letter stated that for Recovery
                Act-funded projects, Kaeser
                Compressors, Inc., purchases
                a base chassis of proprietarily      Kaeser blower label, indicating product was made in
                designed components from the         Germany. (EPA OIG photo)
                parent company, Kaeser
                Kompressoren, GmbH, located in Germany. The letter further stated that the
                chassis consisted of components such as the blower block, silencer base, and
                enclosure. The items added domestically included the electric motor, pulleys,
                belts, relief valves, and expansion joints. The letter described the building process
                as mounting and aligning the motor and v-belt pulley drive, adjusting and
                installing the pressure relief valve(s), and assembling and installing of check

1
 Title 2 CFR §176.70(a)(2)(ii). 

2
 See Determining Whether “Substantial Transformation” of Components Into a “Manufactured Good” Has

Occurred in the U.S.: Analysis, Roles, and Responsibilities, dated October 22, 2009.



12-R-0789                                                                                              3
              valves, fan motors, gauges, and switches. Depending on the size and complexity
              of the specification, additional wiring and setting of ancillary devices may be
              required. Each unit requires 16 to 20 hours to build. The assembly procedures,
              combined with the U.S.–sourced items, account for 35 to 50 percent of the
              package’s total value.

                                                     As previously noted, 2 CFR § 176.140
                                                     defines a manufactured good as a good that
                                                     has been processed into a different form and
                                                     shape, or combined with other raw materials
                                                     to create a material that has different
                                                     properties than the properties of the
                                                     individual raw materials. Further, 2 CFR
                                                     § 176.70 states the manufacturing of such
                                                     goods must occur in the United States.

                                                       The October 29 letter does not provide a
                                                       meaningful and specific technical description
                                                       of the processes in the United States that
                                                       would enable us to determine whether the
                                                       displacement blowers were manufactured in
                                                       the United States. The letter does not explain
Kaeser blowers. (EPA OIG photo)
                                                       how the addition of the drive system (motor,
                                                       pulley, and belts) changed the properties of
                                                       the blower chassis manufactured in Germany
                and imported into the United States, as required by the regulations. Product
                literature and physical inspection of the equipment at the construction site showed
                that the chassis manufactured in Germany was essentially a blower without a
                drive system. The supporting documentation mentioned labor processes and
                efforts in general, but did not explain how this information relates to changing the
                properties of the imported blower chassis. The documentation also referred to
                planning, designing, sourcing, fabricating, building techniques, and testing
                completed in the United States. EPA guidance, “Determining Substantial
                Transformation,” states that design, planning, procurement, component
                production, or any other step prior to the process of physically working on or
                bringing together the components of the item incorporated into the project cannot
                constitute or be part of the manufacturing process. In addition, the letter does not
                specifically address the assembly of the blowers incorporated into the Nappanee
                project. Without additional documentation, there is no evidence to support that the
                properties of the 11 positive displacement blowers used in the Nappanee project
                were different from the properties of the blower chassis imported from Germany,
                as required by 2 CFR § 176.140.




12-R-0789                                                                                          4
Recommendation
            We recommend that the Regional Administrator, Region 5:

               1.	 Employ the procedures set out in 2 CFR §176.130 to ensure compliance
                   with Buy American requirements. In the event that the region makes a
                   determination to retain foreign manufactured goods in the Nappanee
                   project under 2 CFR § 176.130(c)(3), the region should either “reduce the
                   amount of the award by the cost of the steel, iron, or manufactured goods
                   that are used in the project… or take enforcement or termination action in
                   accordance with the agency’s grants management regulations.”

               2.	 Require the Indiana Finance Authority to verify the City of Nappanee’s
                   corrective actions and ensure that replaced items meet the Buy American
                   requirements.

City, Region 5, and State Responses

            The Office of Inspector General (OIG) received written comments on the draft
            report from the City of Nappanee and IFA. The City of Nappanee also provided
            supplemental documentation to support its comments. Region 5 provided verbal
            comments during an October 18, 2011, briefing.

            The city disagreed with our conclusion that the documentation for several items
            did not support compliance with Buy American requirements. However, the city
            has taken action to replace two items with Buy American-compliant components.
            The city stated that the three guidance documents cited in the report as aids in
            determination of substantial transformation were not available at the time the city
            bid the project, and the piecemeal guidance issued by the Agency after the
            bidding and awarding of the construction project created an inopportune
            environment in which obtaining comprehensive documentation from
            manufacturers was very difficult and time intensive. The city also acknowledged
            Section 1605 of the Recovery Act was in place at the time the project was bid, but
            practical examples were not available to assist in determining the adequacy of
            manufacturer documentation. The full text of the city’s comments and the OIG’s
            detailed response are included in appendix A.

            IFA disagreed with our conclusion that several items did not support Buy
            American compliance, and noted the city’s action to provide additional
            documentation to demonstrate compliance for five items and the replacement of
            two products with Buy American compliant products. IFA believes the city’s
            action should demonstrate the city’s compliance. The full text of IFA’s comments
            and the OIG’s detailed response are included in appendix B.




12-R-0789                                                                                       5
            The Agency provided verbal comments to our draft report during a meeting on
            October 18, 2011. The Agency disagrees with our position on the Kaeser positive
            displacement blower. The Agency agreed follow-up action would be necessary to
            ensure the city’s replaced items met the Buy American requirements. On
            December 22, 2011, representatives from Region 5 and IFA made a visit to the
            project and verified that two items were replaced. Regarding the remaining four
            items, the Agency believes the city has provided sufficient documentation to
            assure compliance with the Buy American requirements.

OIG Comment
            Our original recommendation remains unchanged and a second recommendation
            has been added to address the city’s action plan to replace two items. We
            modified our report based on the additional Buy American documentation
            provided, and the corrective actions taken by the city to support compliance with
            the Buy American requirements.

            We evaluated the additional documentation provided and verified the corrective
            actions taken by the city and agreed six of the seven items that had been identified
            in the draft report comply with the Buy American requirement. For four items, the
            city provided additional documentation to support compliance with the Buy
            American requirements, and based on our review of the information we now
            agree that the four items comply with the requirements. The city replaced two
            items to meet the Buy American requirements. The removal of these items made
            $22,198 of Recovery Act funds available for other Recovery Act purposes.
            Region 5 verified the replaced items on December 22, 2011. We reviewed
            supporting documentation provided by Region 5 and agree with the actions taken
            by the city and the region to ensure compliance with the Buy American
            requirements.

            We disagree with the city, IFA, and Region 5 that the Kaeser positive
            displacement blowers comply with Buy American requirements. The supporting
            documentation provided for the Kaeser blower is not sufficient to support Buy
            American compliance. Specifically, it does not provide a meaningful and specific
            technical description of the processes in the United States that would enable us to
            determine whether the displacement blowers were manufactured in the United
            States.

            Region 5 stated that EPA Office of Water staff engineers provided “anticipatory”
            oversight to address the issue of substantial transformation to determine whether
            the products were actually manufactured in the United States. Office of Water
            staff engineers opined that substantial transformation is occurring at Kaeser’s
            Fredericksburg, Virginia, facility and that the products are therefore made in the
            United States. An Office of Water e-mail message to Kaeser, dated November 1,
            2010, documents this opinion. During our review, we discussed the November 1,
            2010, e-mail with Office of Water staff. EPA’s Buy American Q&A Part 2 states,


12-R-0789                                                                                       6
            “Substantial transformation determinations are made by assistance recipients . . .
            EPA does not and will not make determinations as to substantial transformations
            . . . EPA’s role under §1605 is to review waiver requests. . . .” Office of Water
            staff providing an opinion on substantial transformation to Kaeser is inconsistent
            with EPA’s guidance and its role under Section 1605 of the Recovery Act.




12-R-0789                                                                                        7
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                               Planned
    Rec.    Page                                                                                              Completion   Claimed    Agreed-To
    No.      No.                          Subject                         Status1      Action Official           Date      Amount      Amount

     1        5     Employ the procedures set out in 2 CFR §176.130         U       Regional Administrator,                 $1,769
                    to ensure compliance with Buy American                                Region 5
                    requirements. In the event that the region makes a
                    determination to retain foreign manufactured goods
                    in the Nappanee project under
                    2 CFR § 176.130(c)(3), the region should either
                    “reduce the amount of the award by the cost of the
                    steel, iron, or manufactured goods that are used in
                    the project… or take enforcement or termination
                    action in accordance with the agency’s grants
                    management regulations.”
     2        5     Require the Indiana Finance Authority to verify the     C       Regional Administrator,
                    City of Nappanee’s corrective actions and ensure                      Region 5
                    that replaced items meet the Buy American
                    requirements.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-R-0789                                                                                                                                         8
                                                                           Appendix A

            City of Nappanee Response to Draft Report
                        and OIG Evaluation




September 15, 2011

Mr. Robert Adachi
Director of Forensic Audits
United States Environmental Protection Agency
Office of Inspector General
1200 Pennsylvania Avenue, N.W. (2410T)
Washington DC 20460

RE:   Draft Site Visit Report
      American Recovery and Reinvestment Act Site Visit
      of the Wastewater Treatment Plant Improvements Project,
      City of Nappanee, Indiana
      Project No. OA-FY11-0036

Dear Mr. Adachi,

This correspondence is intended to address the preliminary findings of the U.S.
Environmental Protection Agency, Office of Inspector General Draft Site Visit Report:
American Recovery and Reinvestment Act Site Visit of the Wastewater Treatment Plant
Improvements Project, City of Nappanee, Indiana (Draft Report). Within the
aforementioned document, the U.S. Environmental Protection Agency Office of
Inspector General (OIG) claim that seven (7) products utilized in the City of Nappanee
Wastewater Treatment Plant Improvements Project lack sufficient documentation to
meet the American Recovery and Reinvestment Act (ARRA) Section 1605 Buy
American requirements and do not meet the criteria outlined in EPA guidance for
determining substantial transformation of goods and equipment.

The City of Nappanee believes that five (5) of the seven (7) items now have satisfactory
documentation to demonstrate compliance with Buy American via substantial
transformation. One (1) of the final two (2) remaining items was replaced with a Buy


12-R-0789                                                                             9
American compliant component on September 13, 2011 and the replacement of the
remaining item with a Buy American compliant product will occur on or before October
5, 2011.

Table 1: OIG ARRA Buy American Deficiency Summary provides a summary of the
items that, according to OIG, did not include the necessary detail and or documentation
to demonstrate compliance with Section 1605 of the Recovery Act.

Table 1: OIG ARRA Buy American Deficiency Summary

   Section             Item              Manufacturer                 Vendor
              Positive Displacement
      A              Blowers                 Kaeser                BL Anderson
      B         Mag Flow Meters             Siemens                BL Anderson
                                                             All Phase Electric Supply
      C         Square D Panels        Schneider Electric              Co.

               Peristaltic and Hose
      D               Pumps              Watson-Marlow             BL Anderson
                 Check and Gate         Kennedy (M & H)
      E               Valves            Valve Company              BL Anderson
               Gate, Globe, Check,
               Ball, Butterball, and                            Wayne Pipe Supply
      F         Slo-closed Valves       Milwaukee Valve            Company
                                                                Wayne Pipe Supply
      G        Backflow Preventer            WATTS                 Company

Specifically, the Draft Report claims that “the documentation provided by the City did not
meet the documentation standards for meeting Recovery Act Section 1605 Buy
American requirements nor EPA guidance issued for determining substantial
transformation of goods and equipment for all project equipment.”

Further, the Draft Report states that reasons for the insufficiency rating of the seven
remaining items are as follows:

   1. 	 Insufficient or no description of the manufacturing processes;
   2. 	 No disclosure of the manufacturing site;
   3. 	 No transformation questionnaire or alternative documentation to support substantial
        transformation in the United States; and
   4. 	No documentation or explanation to support answers provided on the substantial
        transformation matrix.
The Draft Report references three “key” guidance documents to aid in the determination
of substantial transformation of goods utilized in the project, which is classified by OIG
as the primary deficiency for the remaining seven (7) items. It is important to note that
these guidance documents were not available at the time the City of Nappanee
Wastewater Treatment Plant Improvements Project was bid. The delayed and


12-R-0789                                                                                10
piecemealed guidance issued by EPA after the bidding and awarding of the construction
contract(s) for the Nappanee Wastewater Treatment Plant project created an
inopportune environment in which obtaining comprehensive documentation from
manufacturers was very difficult and time intensive. The City of Nappanee
acknowledges that Section 1605 of the Recovery Act was in place at the time the
project was bid, but practical examples were not available at this time and resulted in
uncertainties in determining the adequacy of manufacturer documentation. However, in
spite of these obstacles, the City, its consulting engineer (Commonwealth Engineers,
Inc.), its contractor (R.E. Crosby), and several equipment representatives and
manufactures continue to make every effort to adhere to the guidance that was
developed and distributed after the project was bid. The City has proceeded with due
diligence in acquiring the documentation throughout the project and after its completion.

  OIG Response 1: We recognize that the Recovery Act’s Buy American requirements were
  new, and projects were required to be under contract or construction 12 months after the
  Recovery Act was signed. The city accepted funds from Indiana through the Wastewater
  State Revolving Loan Fund Program. The loan agreement between the city and IFA requires
  the city to comply with all federal requirements applicable to the loan when funded by the
  Recovery Act. Further, paragraph (r) on page 18 of the loan agreement’s standard conditions
  requires Buy American compliance. If the city was unclear about the procedures necessary
  to fulfill its responsibilities under the loan agreement, the city should have sought guidance
  from the state. In addition, EPA published several training and guidance documents on its
  public Internet site to assist recipients in meeting Recovery Act requirements.

In addition to the untimely issuance of the final Buy American documentation guidance
as outlined above, it appears as though documentation provided to OIG staff by
Commonwealth Engineers, Inc. on behalf of the City of Nappanee, was not
acknowledged or considered in the preparation of the Draft Report. In particular,
additional substantial transformation documentation was provided by Milwaukee Valve,
Kaeser, and Square D and transmitted to OIG staff via e-mail in May 2011 and June
2011 but it does not appear that this additional documentation was reviewed or
addressed in the Draft Report. It was also the understanding of the City of Nappanee
and those working on behalf of the City that secondary documentation, namely shipping
manifests and bills of lading, would be considered to determine the actual origin of
substantial transformation or assembly, but it does not appear any of this information
was reviewed or considered by OIG in the Draft Report.

Despite the issues outlined above, each item listed in Table 1: OIG ARRA Buy
American Deficiency Summary is individually addressed in the remaining portions of
this correspondence whereby the findings, factual accuracy of OIG’s findings, and
concurrence or non-concurrence of the City of Nappanee are stated and summarized.
In addition, a discussion on existing and recent substantial transformation
documentation is also included along with a discussion on the shipping information
provided, where applicable.




12-R-0789                                                                                          11
A.      Kaeser Positive Displacement Blowers

1. OIG Comment: “Made in Germany” labels were found on the equipment.

        Nappanee Response: The City does not refute the presence of these labels on the
        chassis and blower blocks of the positive displacement blowers. However, the
        documentation mentioned below should serve to prove that the blowers meet Buy
        American provisions.

2. OIG Comment: The Letter dated June 16, 2009 to Mr. Mark Gasvoda of BL Anderson
   references a May 2009 United States Office of Management and Budget (OMB) ruling from
   May 2009 that validated the blowers meet the ARRA funding requirement. The OIG was
   unable to locate said ruling.
       Nappanee Response: Given OIG’s lack of acknowledgement of the May 2009 ruling,
       statements regarding this ruling are hereby retracted from this review. The May 2009
       ruling is not needed to prove compliance with Buy American provisions.

        OIG Comment: The letter dated October 29, 2010 from Kaeser to the City of Nappanee
        was provided to support substantial transformation. The letter states that for ARRA
        funded projects that Kaeser, Compressors, Inc. purchases a base chassis (blower block,
        silencer base, and enclosure) of proprietarily designed components from the parent
        company Kaeser Kompressoren, GmbH located in Germany. The electric motor,
        pulleys, belts, relief valves, and expansion joints were added domestically. Product
        Literature and inspection indicates that the chassis manufactured in Germany is
        essentially a blower without a drive system. The documentation provided did not explain
        how the addition of the drive system substantially changed or transformed the character
        and use of the good manufactured in Germany and imported to the U.S.

        Nappanee Response: Kaeser Compressors, Inc. provided additional correspondence to
        the City of Nappanee dated May 18, 2011, which further elaborates on the substantial
        transformation of the positive displacement blowers at the Fredericksburg Virginia
        manufacturing site. This correspondence further describes the time, cost, skill level of
        employees, and substantial value added to the final product to be utilized specifically for
        wastewater applications such as the City of Nappanee Wastewater Treatment Plant
        Improvements Project. We request that OIG further consider the May 18, 2011
        correspondence for the determination that substantial transformation occurred in the
        United States. In addition, Kaeser Compressors, Inc. has retained the services of Foley
        & Lardner LLP to assist in responding to questions raised by OIG in the Draft Report. As
        outlined in the letter dated September 14, 2011 from Foley & Lardner LLP to Mayor
        Larry Thompson, a comprehensive response is expected to be provided to OIG by
        September 21, 20113. Please be advised that the aforementioned letters can be
        reviewed in further detail in Attachment A.



3
 The OIG received and reviewed the cited response. No additional evidence was provided which would change our
position.


12-R-0789                                                                                                  12
3. OIG Comment: Documentation mentioned labor processes and efforts in general but did not
   provide the specific labor and cost detail utilized to substantially transform the equipment.

        Nappanee Response: The May 18, 2011(Attachment A) letter signed by Stephen Horne
        of Kaeser Compressors Inc. clearly indicated on page three that “The assembly
        procedures combined with the domestically sourced items account for 35 to 50 percent
        of the packages total value.” Per the response above, additional details on the
        substantial transformation process in the U.S. will be forthcoming by September 21,
        2011.

4. OIG Comment: Planning, designing, sourcing, fabricating, building techniques and testing
   were all stated to be completed in the United States; however, EPA guidance states that
   these tasks do not constitute substantial transformation.

        Nappanee Response: Regardless of EPA opinion that “planning, designing, sourcing,
        fabricating, building techniques and testing” do not constitute substantial transformation,
        the May 18, 2011 documentation provided by Kaeser Compressors, Inc. (Attachment
        A) clearly states that the actual building of the blower occurs in the U.S. at the facility
        located at 511 Sigma Drive Fredericksburg, Virginia. The term “building” in this context
        is synonymous with the term substantial transformation. Please be advised that the
        forthcoming September 14, 2011 will contain further detail on the activities performed to
        substantially transform the blowers in the U.S. as questioned by OIG in the Draft Report.

In the opinion of the City of Nappanee, it appears that OIG did not thoroughly review the
information provided by BL Anderson and Kaeser Compressors, Inc. Of particular interest is the
Order Confirmation dated January 12, 2010 which consists of four pages and includes the
following relevant information that further demonstrates substantial transformation in the U.S.:

       Number of items in the order to be shipped to Nappanee; 

       Model number of positive displacement blowers;

       ARRA notation for the blowers which indicates substantial transformation occurred in

        the United States;

       Method of delivery;

       Origin of delivery;

       Projected delivery date; and 

       Specific language stating “assembly at Fredericksburg.” 


In addition, a key element to the documentation provided by Kaeser Compressors, Inc. was not
acknowledged by OIG, which is the e-mail provided by Kaeser Compressors, Inc. in which
Kristen Kroner of USEPA Drinking Water State Revolving Fund Team Office of Groundwater
and Drinking Water states that: “Based on the additional information provided, we believe
substantial transformation is occurring in the U.S. at your Fredericksburg facility.” This e-mail
correspondence was sent to Stephan Dagovitz, the District Manager of Kaeser Compressors,




12-R-0789                                                                                       13
Inc. on November 1, 2010 and was provided to OIG staff on May 20, 2011. The aforementioned
correspondence has been attached in Attachment A for review.


 OIG Response 2: We reviewed Kaeser Compressors, Inc.’s, letter dated October 29, 2010,
 to EPA’s Office of Water. The letter contained the same information as the May 18, 2011,
 Kaeser letter referred to in the city’s response. We found the information in the letter to be
 insufficient to enable us to determine whether the displacement blowers were manufactured
 in the United States, as noted in this report’s “Results of Site Visit” section. We received
 and reviewed the Foley & Lardner, LLP, report and found no new information to support the
 items being manufactured in the United States.

 We were aware of the e-mail sent by an employee from EPA’s Office of Water. We find no
 authority in Section 1605 of the Recovery Act or the relevant regulations at 2 CFR Part 176,
 “Requirements for Implementing Sections 1512, 1605, and 1606 of the American Recovery
 and Reinvestment Act of 2009 for Financial Assistance Awards,” that would authorize EPA
 to make a determination of substantial transformation. In fact, EPA’s Determining
 Substantial Transformation clearly states that “EPA does not and will not make
 determinations as to substantial transformation or the U.S. or foreign origin of manufactured
 goods.” Since Kaeser Compressors, Inc., is an affiliate of Kaeser Kompressoren, GmbH, and
 “the base chassis of proprietary designed components” was obtained from the parent, we
 need to clearly understand the precise steps and costs completed in the United States versus
 the process and steps completed in Germany for the actual blowers used in the Nappanee
 project.



B.     Siemens Mag Flow Meters

1. 	 OIG Comment: Dutch labels were found on the equipment.

       Nappanee Response: The City acknowledges the Dutch labels on the cable of the
       Siemens Mag Meter and these cables were replaced on September 13, 2011.

2. 	 OIG Comment: Documentation provided stated that the meters “undergo final assembly,
     testing, user-defined programming and labeling in the Siemens Configuration Center located
     in Spring House, PA USA.” This document was deemed to be insufficient for the
     determination of substantial transformation in the United States.

       Nappanee Response: BL Anderson Company, the Siemens Flow Meter Product Line
       Representative, replaced the Dutch-produced flow transmitter, cabling, and remote wall
       mount kit with Buy American compliant equipment on September 13, 2011. Substantial
       transformation documentation for this equipment has been included for review in
       Attachment B.




12-R-0789                                                                                         14
OIG Response 3: We acknowledge the city’s action taken to have BL Anderson Company, the
Siemens Flow Meter Product Line Representative, replace the Dutch-produced flow transmitter,
cabling, and remote wall mount kit with Buy American compliant equipment. Based on the
stated action taken, we added a report recommendation to the Agency to verify that the item has
been replaced with Buy American–compliant equipment. On December 22, 2011, the Region 5
and IFA staff visited the project and verified the city’s replacement of the Siemens Flow Meter.
We reviewed supporting documentation provided by Region 5 to support their visit and the
city’s compliance with the Buy American requirements. We agreed that the action taken by the
city and the region have resolved the question of compliance. We modified our report
accordingly.

C.     Square D Electrical Panels

1. OIG Comment: No label of origin found on the panels.

       Nappanee Response: The City of Nappanee acknowledges that no labels were found on
       the panels; however, Brady Dryer of Commonwealth Engineers, Inc. did provide
       documentation to OIG on June 3, 2011 verifying that the Square D panels were
       substantially transformed in Peru, Indiana.

2. OIG Comment: Insufficient Buy American documentation was provided.
      Nappanee Response: Again, the City of Nappanee questions the review of
      documentation provided to OIG staff. On June 3, 2011 an e-mail was sent by Brady
      Dryer of Commonwealth Engineers, Inc. to John Flynn and Jean Bloom which included
      documentation describing relevant characteristics of the Peru, Indiana Square D
      manufacturing facility. This documentation was neither acknowledged by OIG staff via
      e-mail nor was it referenced in the OIG Draft Report. Nonetheless, Square D has
      provided additional documentation in the form of the Substantial Transformation
      Examination Checklist which includes the required narrative and has been attached for
      review in Attachment C. This documentation should provide adequate evidence that
      the panels, including circuit breakers, were substantially transformed in Peru, Indiana.

OIG Response 4: We reviewed the information contained in the June 3, 2011, e-mail and found
it insufficient to support compliance with Buy American requirements. We acknowledge that not
all of the information provided and reviewed was referenced in our draft report. A substantial
transformation matrix was provided with insufficient explanation of the manufacturing process.

We reviewed the additional information provided by Commonwealth Engineers, and determined
that sufficient documentation has been provided to support compliance with the Buy American
requirements. We revised the final report accordingly.




12-R-0789                                                                                     15
D.      Watson-Marlow Peristaltic Pump

     1. OIG Comment: Buy American documentation not sufficient.

               Nappanee Response: Further review and discussion with Watson-Marlow have
               indicated that the peristaltic pumps do not meet ARRA Buy American
               requirements. A letter stating this misunderstanding and the inability of this item
               to meet Recovery Act Section 1605 Buy American provisions was provided by BL
               Anderson, the manufacturer’s representative, on May 25, 2011 to the City of
               Nappanee.        In particular, this letter discusses Watson-Marlow’s improper
               application of the North American Free Trade Agreement (NAFTA) in the context
               of compliance with Recovery Act Section 1605.               The above-mentioned
               correspondence can be reviewed in greater detail in Attachment D. As the City
               had relied on Watson-Marlow’s assertion that the pumps complied with Buy
               American until the misapplication of NAFTA came to light, this delay created
               difficulties for Nappanee in order to utilize available avenues to comply with Buy
               American without creating undue delays in the completion of the project.

               However, the City will comply with the required Buy American compliance
               requirements of ARRA by replacing the Watson-Marlow peristaltic pumps with
               the Pulsafeeder, Inc. Chem-Tech Series XPV peristaltic pump, which are
               substantially transformed in Punta Gorda, FL. Additional documentation has
               been provided in Attachment D for review. Of particular interest is a letter
               dated February 17, 2010 signed by Jefferey Bye, the Director of Marketing and
               Business Development which states that the Chem-Tech Series SPO products
               may include components from the United States, Canada, South Korea, Taiwan,
               and China, but are substantially transformed in Punta Gorda, FL.

               Additional information has been requested regarding the specific steps in the
               manufacturing process, labor required, skill level of employees, the addition of
               substantial value, and percentage of foreign versus domestic components in the
               Chem-Tech Series peristaltic pumps and the documentation will be sent to OIG
               upon receipt. This equipment will be installed to replace the Watson-Marlow
               perastaltic pumps at the Nappanee WWTP within the next three (3) weeks per
               correspondence provided by Mark Gasvoda of BL Anderson on September 14,
               2011 (Attachment D).

OIG Response 5: We acknowledge the city’s planned action to replace the noncompliant
Watson-Marlow peristaltic pump and added a report recommendation to the Agency to verify the
item replacement with a Buy American–compliant pump. On December 22, 2011, Region 5 and
IFA staff visited the project and verified the city’s replacement of the pump. We reviewed
supporting documentation provided by Region 5 and determined the actions taken by the city and
the region have resolved the question of compliance. We modified our report accordingly.



12-R-0789                                                                                      16
E. 	   Kennedy (M & H) Valve Company Check and Gate Valves
       Kennedy Valve, Clow Valve, and M&H Valve are subsidiary companies of the McWane
       Company. Each company manufactures various kinds of valves, and the logo for each
       company appears on each valve. BL Anderson, the supplier of the Check and Gate
       Valves, determined that Kennedy Valve provided the items installed at the Nappanee
       WWTP project. The Kennedy check and gate valves are substantially transformed in
       Elmira, New York. Representatives of Kennedy Valve provided a Substantial
       Transformation Examination checklist and related supporting narratives on September 2,
       2011, which has been included in Attachment E. This information states that all
       components, except for $15 worth of foreign items are substantially transformed in the
       United States at the Elmira, New York facility.


1. OIG Comment: Insufficient or no description of the manufacturing processes.
           Nappanee Response: Page 3 September 2, 2011 Substantial Transformation
           Examination Checklist (Attachment E) describes the manufacturing process.

2. OIG Comment: No disclosure of the manufacturing site.

       Nappanee Response: The September 2, 2011 Substantial Transformation Examination
       Checklist (Attachment E) clearly states that the valves for the Nappanee Wastewater
       Treatment Plant Improvements Project were substantially transformed in Elmira, New
       York.

3. OIG Comment:	 No transformation questionnaire or alternative documentation to support
   substantial transformation in the United States; and

       Nappanee Response: The Substantial Transformation Examination Checklist was
       completed on September 2, 2011 and has been included in Attachment E review.

4. OIG Comment:	 No documentation or explanation to support answers provided on the
   substantial transformation matrix.
      Nappanee Response: The Substantial Transformation Examination provided on
      September 2, 2011 includes narratives as required per the Draft Report and has been
      included in Attachment E for review.

The above documentation should serve to prove that the Kennedy Valves meet the ARRA Buy
American requirements as they were substantially transformed in Elmira, New York.

OIG Response 6: We reviewed the additional information included in the city’s response and
determined that sufficient documentation has been provided to support compliance with the Buy
American requirements. We revised the final report accordingly.

F.     Milwaukee Valve Gate, Globe, Ball, Butterball, and Slo-closed Valves
       Milwaukee Valve provided documentation regarding ARRA Buy American compliance on
       May 26, 2011 to Brady Dryer of Commonwealth Engineers, Inc. This correspondence
       was e-mailed to John Flynn of EPA on May 26, 2011 by Brady Dryer. No



12-R-0789                                                                                  17
       acknowledgement of this e-mail message and supporting correspondence was received
       and it appears this information was not considered for the Draft Report.
       Per the Draft Report, additional documentation was requested from Milwaukee Valve.
       Thomas LaGuardia of Milwaukee Valve responded to this request in correspondence
       dated September 6, 2011 in the form of a completed Substantial Transformation
       Examination Checklist with narratives. The general deficiencies noted in the EPA audit
       are addressed below and the noted correspondence has been included in Attachment
       F.

1. OIG Comment: Insufficient or no description of the manufacturing processes;
       Nappanee Response: See page 2 and 3 of the September 6, 2011 Substantial
       Transformation Examination Checklist describing the manufacturing process,
       which has been included in Attachment F.

2. OIG Comment: No disclosure of the manufacturing site;

       Nappanee Response: Correspondence from Milwaukee Valve, dated May 26, 2011 and
       September 6, 2011 include a statement indicating the Prairie du Sac Wisconsin facility is
       the manufacturing sites of the valves provided for the Nappanee Wastewater Treatment
       Plant Improvements Project. This correspondence has been included in Attachment F
       for review.

3. OIG Comment:	 No transformation questionnaire or alternative documentation to support
      substantial transformation in the United States was available; and

       Nappanee Response: The Substantial Transformation Examination Checklist was
       completed on September 6, 2011 and has been included in Attachment F for review.

4. OIG Comment:	 No documentation or explanation to support answers provided on the
   substantial transformation matrix.
      Nappanee Response: The Substantial Transformation Examination checklist includes
      narratives required per the Draft Report and has been included in Attachment F for
      review.

The above documentation should serve to prove that the Milwaukee Valve does meet the ARRA
Buy American requirements.

OIG Response 7: We acknowledge that not all of the information provided and reviewed was
referenced in the draft report. We reviewed the information contained in the May 26, 2011,
e-mail and found it insufficient to support compliance with Buy American requirements. The
information did not disclose the manufacturing location. We reviewed information provided with
the city’s response to the draft report, and determined that sufficient documentation has been
provided to support compliance with the Buy American requirements. We revised the final report
accordingly.




12-R-0789                                                                                    18
G. 	   WATTS Backflow Preventer
       General statements of ARRA Buy American Compliance were provided by WATTS to
       the City of Nappanee in correspondence dated February 11, 2010.                      This
       correspondence did not include substantial transformation information, which recently
       has been provided by Ames Fire & Waterworks, a subsidiary of WATTS, on September
       6, 2011. General information regarding substantial transformation of the Backflow
       Preventer, including a factory tour of the Ames facility, has been included for review in
       Attachment G.
       The general deficiencies noted in the Draft Report are addressed below and the noted
       correspondence and relevant information are attached.

1. OIG Comment: Insufficient or no description of the manufacturing processes;

       Nappanee Response: Page 1 of the September 6, 2011 correspondence from Ames Fire
       & Waterworks generally describes the manufacturing process. The Substantial
       Transformation Examination Checklist with detailed narratives has been requested and
       will be submitted to OIG upon receipt; however, general substantial transformation
       discussion and a factory tour of the Ames Fire & Waterworks facility in Woodland,
       California are included in Attachment G.

2. OIG Comment: No disclosure of the manufacturing site;

       Nappanee Response: The September 6, 2011 correspondence from Ames Fire &
       Waterworks states that the components of the backflow preventer in question are
       manufactured in Woodland, California whereby approximately 75% to 80% of the raw
       material is domestically provided.

3. OIG Comment:	 No transformation questionnaire or alternative documentation to support
      substantial transformation in the United States; and

       Nappanee Response: The Substantial Transformation Examination Checklist and
       corresponding narratives have been requested and will be submitted to OIG upon
       receipt; however, a general substantial transformation discussion and a factory tour of
       the Ames Fire & Waterworks facility in Woodland, California are included in Attachment
       G.

4. OIG Comment:	 No documentation or explanation to support answers provided on the
   substantial transformation matrix.

       Nappanee Response: The Substantial Transformation Examination Checklist and
       corresponding narratives have been requested and will be submitted to OIG upon
       receipt; however, a general substantial transformation discussion and a factory tour of
       the Ames Fire & Waterworks facility in Woodland, California are included in Attachment
       G.




12-R-0789                                                                                    19
       This documentation should serve to prove that the WATTS Backflow Preventer does
       meet the ARRA Buy American requirements; however, as indicated above, additional
       documentation will be provided to OIG upon receipt.

OIG Response 8: We reviewed the information provided in response to the draft report, and
determined sufficient documentation has been provided to support compliance with the Buy
American requirements. We revised the final report accordingly.

Conclusion
The City of Nappanee has diligently worked to demonstrate compliance with Buy American
requirements. Based upon the recent submissions from manufacturers and/or suppliers, it is the
City of Nappanee’s position that five (5) of the seven (7) deficient items noted in the Office of
Inspector General Site Visit Draft Report dated August 16, 2011 now meet the ARRA Buy
American requirements. The City has provided detailed documentation for these five
manufacturers which should satisfactorily demonstrate Buy American compliance through
substantial transformation.

To address the remaining two items, the City believes that the Siemens Mag Flow Meters are
now in compliance with Buy American provisions, as the non-compliant components have been
replaced with components which were substantially transformed in Springhouse, Pennsylvania.
Documentation from Siemens describing the substantial transformation process has been
provided in Attachment B. The remaining item, the Watson-Marlow Perilstalic Pumps, will be
replaced with Pulsafeeder, Inc. Chem-Tech Series XPV peristaltic pumps by October 5, 2011.
The Pulsafeeder pumps are substantially transformed in Punta Gorda, FL as stated in
Attachment D and additional detail provided by Pulsafeeder will be submitted to OIG for review
upon receipt.

We appreciate the opportunity to respond to the Office of Inspector General Draft Site Visit Draft
Report for the Nappanee Wastewater Treatment Plant Improvements Project. We sincerely
hope that this correspondence and the attachments will suffice in addressing the findings in the
referenced Draft Report. If you should have any further questions or concerns, please contact
Brady Dryer at Commonwealth Engineers, Inc. via e-mail at bdryer@contactcei.com or by
phone at (317) 888-1177.

Sincerely,


Mayor Larry Thompson
City of Nappanee


Attachments
Attachment A: Kaeser Documentation
Attachment B: Siemens Documentation
Attachment C: Square D Documentation
Attachment D: Watson-Marlow and Pulsafeeder Documentation
Attachment E: Kennedy Valve (M&H) Documentation
Attachment F: Milwaukee Valve Documentation
Attachment G: WATTS Documentation



12-R-0789                                                                                      20
cc:	   Steve Marquardt, Chief, Section 2, State and Tribal Programs Branch, Region 5 (sent
       via email)
       Laura Cossa, State Program Lead, State and Tribal Programs Branch, Region 5 (sent
       via email)
       Gale Gerber, Utilities Manager, City of Nappanee, Indiana (sent via email)
       Al Stong, Project Manager, Commonwealth Engineers, Inc. (sent via email)
       Jim McGoff, Director of Environmental Programs, Indiana Finance Authority (sent via
       email)
       Mark Downey, President, Commonwealth Engineers, Inc. (sent via email)
       Al Stong, Project Manager, Commonwealth Engineers, Inc. (sent via email)
       Brady Dryer, Compliance Manager, Commonwealth Engineers, Inc. (sent via email)




12-R-0789                                                                                    21
                                                                                                  Appendix B

    Indiana Finance Authority Response to Draft Report
                    and OIG Evaluation


September 15, 2011 
 
VIA FIRST CLASS MAIL                      Copies sent via email to: John Trefry (trefry.john@epa.gov) 
                                                                              Jean Bloom (bloom.jean@epa.gov)  
Robert Adachi 
Director of Forensic Audits 
United States Environmental Protection Agency 
Office of Inspector General 
1200 Pennsylvania Avenue, N.W. (2410T) 
Washington, DC 20460 
 
Re:     Draft Site Visit Report 
        American Recovery and Reinvestment Act Site Visit of 
        Wastewater Treatment Plant Improvements Project, 
        City of Nappanee, Indiana 
        Project No. OA‐FY11‐0036 
 
Dear Mr. Adachi: 
 
        The  Indiana  Finance  Authority  (IFA)  is  in  receipt  of  the  U.S.  Environmental  Protection  Agency 
(EPA) ‐  Office of Inspector  General’s  (OIG) “Draft” Site Visit  Report dated August 16, 2011  (Draft Report) 
regarding  the  above  referenced  matter.    As  required  by  the  Draft  Report,  the  IFA  hereby  submits  its 
written response to the findings and recommendations of the Draft Report. 
 
Introduction 
        The  IFA  believes  the  Draft  Report  inaccurately  concludes  the  IFA  “did  not  comply  with 
documentation  standards  for  meeting  Recovery  Act  Section  1605  Buy  American  requirements  nor  EPA 
guidance for determining substantial transformation of goods and equipment.” This IFA response to the 
Draft  Report  demonstrates  that  IFA  has  complied  with  its  responsibilities  regarding   the  Buy  American 
requirements  set  forth  in  the  American  Recovery  and  Reinvestment  Act  of  2009  (ARRA)  and  in 
subsequent Buy American Guidance documents issued by EPA.  




12-R-0789                                                                                                       22
         The  IFA  requests  that  references  to  the  “IFA”,  located  on  page  two  (2)  and  page  six  (6)  of  the 
Draft  Report  be  removed  from  the  final  OIG  Site  Visit  Report  as  the  inclusion  of  IFA  as  a  non‐compliant 
party  is  factually  inaccurate.    Pursuant  to  EPA  issued  Guidance  Document  (EPA‐816‐F‐10‐062)  dated 
August  2010,  the  State’s  role  (as  performed  by  the  IFA)  and  responsibility  during  the  implementation  of 
ARRA  was  to  provide  “oversight  and  check  project  compliance”.   As  the  below  response  demonstrates, 
the  IFA   developed  a  comprehensive  compliance  program  for  Buy  American  compliance  which  included 
significant  oversight  measures  and  project  inspections  for  not  only  the  City  of  Nappanee  (City  or  City  of 
Nappanee)  but  for  all  projects  funded  with  ARRA  dollars.  As  is  documented  below,  the  IFA  not  only  met 
its  responsibility  as  mandated  by  ARRA  and  EPA,  but  initiated  measures  that  exceeded  EPA’s 
requirements  to  better  assure  that  recipients  of  ARRA  funds  and  the  manufacturers  of  equipment 
supplied to ARRA funded projects adhered to the requirements associated with ARRA funded projects.  
 
Background  
       IFA  executed  a  Grant  Agreement  with  the  EPA  to  use  funds  made  available  by  ARRA  dated 
August  20th,  2009.  This  Grant  Agreement  provided  a  total  award  to  the  Indiana  Clean  Water  State 
Revolving  Fund  (CW  SRF)  Loan  Program  of  $94,447,500.00.  The  ARRA  required  all  funds  to  be  under  an 
assistance agreement and begin construction by February 17, 2010. IFA solicited “shovel ready” projects 
in  the  State  of  Indiana  and  entered  into  forty‐three  (43)  Financial  Assistance  Agreements  with  CW  SRF 
loan  participants  by  January  28,  2010.  One  of  the  43  loan  participants  was  the  City  of  Nappanee.   IFA 
executed  a  Financial  Assistance  Agreement  with  the  City  of  Nappanee  on  September  4th,  2009  in  the 
amount  of  $4,875,000.00,  this  amount  included  $3,106,000.00  of  base  SRF  funds  and  $1,769,000.00  of 
ARRA  dollars.  It  is  important  to  note  that  the  City  of  Nappanee  closed  its  loan  before  EPA  issued  key 
guidance documents relating to Buy American requirements and substantial transformation.  
         Despite  the  untimely  issuance  of  pertinent  guidance  documents  pertaining  to  Buy  American, 
particularly  the  documentation  required  to  demonstrate  substantial  transformation,  the  IFA  worked 
diligently  with  Nappanee  and  all  of  its  loan  participants  to  ensure  that  each  loan  participant  was  aware 
of any federal guidance and requirements. IFA strongly believes that it fulfilled its role and responsibility 
relating to Buy American compliance and further believes that each of its loan participants, including the 
City of Nappanee, made every attempt to comply and has complied with issued Buy American guidance.    
 
 
 
 
 



12-R-0789                                                                                                             23
Response 
I.  IFA  has  fulfilled  its  roles  and  responsibilities  set  forth  in  EPA  issued  Buy  American  compliance 
guidance  documents.  IFA  has  developed  and  implemented  a  comprehensive  Buy  American 
compliance program, which includes oversight inspection procedures for all ARRA funded projects.  
         Pursuant to EPA guidance dated August 2010 which outlines the roles and responsibilities of the 
State,  IFA  developed  and  implemented  compliance  oversight  measures  of  ARRA  funded  projects  at  the 
pre‐construction, construction, and post‐construction phases. IFA dedicated substantial time, resources, 
and  personnel  to  assist  its  SRF  borrowers,  the  party  ultimately  responsible  for  the  project’s  compliance, 
to  meet  ARRA  obligations  and  maintain  adequate  documentation,  to  decide  how  and  when  to  properly 
apply de minimis and substantial transformation decisions. 
         At  the  pre‐construction  phase,  every  SRF  borrower  which  received  ARRA  funds  certified  to  IFA 
that  all  ARRA  project  requirements  would  be  followed.  Further,  the  engineering  consultant  retained  by 
the  SRF  borrower  responsible  for  drafting  the  design  and  bid  specifications  for  the  ARRA  funded 
project(s)  certified  to  IFA  that  bids  were  prepared  in  accordance  with  ARRA  Buy  American  regulations. 
This  certification  included  required  Buy  American  contract  provisions  which  IFA  instructed  engineering 
consultants  to  include  in  every  procurement  contract  associated  with  all  ARRA  funded  projects.  At 
contract  award,  IFA  required  that  all  contractors  and  sub‐contractors  certify  that  every  procurement 
contract associated with an ARRA funded project contain the required Buy American contract provisions 
and  follow  Buy  American  procurement  and  documentation  requirements.  Representatives  from  IFA 
attended  pre‐construction  meetings  to  answer  questions  and  provide  guidance  to  ARRA  project 
stakeholders.  Finally,  IFA  reviewed  manufacturer  documentation  used  to  demonstrate  Buy  American 
compliance  and  provided  suggestions  to  improve  documentation  in  order  to  comply  with  evolving  EPA 
guidance. 
         During  the  construction  phase,  IFA  set  a  goal  of  inspecting  every  ARRA  funded  project  at 
construction  milestones  of  25%,  50%,  75%  and  100%  completion.  IFA  created  an  ARRA  Inspection 
Checklist to supplement its existing inspection checklist to capture ARRA‐specific requirements. Further, 
IFA  requested  that  each  ARRA  borrower  provide  all  manufacturer  submissions  to  IFA  for  anticipatory 
review.  IFA  reviewed  submissions  from  manufacturers,  as  those  documents  were  provided  to  IFA  from 
the  ARRA  borrower  or  its  engineering  consultant  in  order  to  provide  oversight  and  suggested  follow‐up 
action.  IFA  relayed  changes  in  Buy  American  documentation  guidance  to  ARRA  borrowers  via  email 
updates  and  newsletter  articles.  IFA  engineers  and  compliance  personnel  regularly  met  with  ARRA 
project stakeholders to clarify documentation requirements. 



12-R-0789                                                                                                           24
        At  the  post‐construction  phase,  IFA  requested  that  ARRA  borrowers  complete  and  return  the 
EPA State ARRA Inspection Checklist to IFA for review prior to the release of final payments. At this time, 
IFA  provided  final  comments  on  the  sufficiency  of  Buy  American  documentation  submitted  by 
manufacturers  and  suggested  follow‐up  steps.  IFA  also  reviewed  de  minimis  waiver  items  to  ensure 
compliance with the requirements of utilizing the waiver.  
        The  above  mentioned  compliance  steps  were  taken  with  the  City  of  Nappanee.  At  the  pre‐
construction  phase,  the  City  of  Nappanee  provided  the  certification  required  by  IFA  stating  that  the 
project  would  follow  all  ARRA  project  requirements.    The  City  of  Nappanee’s  engineering  consultant 
provided  a  certification  that  bids  were  prepared  in  accordance  with  Buy  American  regulations  and  that 
the  required  Buy  American  contract  provisions  would  be  included  in  each  and  every  procurement 
contract.  In  addition,  the  contractors  and  sub‐contractors  involved  in  the  Nappanee  project  certified 
that  the  required  Buy  American  contract  provisions  would  be  included  in  each  procurement  contract. 
IFA  staff  attended  meetings  with  the  City  of  Nappanee  and  its  consulting  engineer  and  provided 
information  on  the  Buy  American  requirements  and  provided  an  opportunity  to  answer  questions.   IFA 
staff reviewed manufacturer documentation provided by Nappanee and if needed, provided suggestions 
to  improve  documentation  in  order  to  comply  with  the  evolving  EPA  guidance.  During  the  construction 
phase,  IFA  staff  inspected  the  Nappanee  project  on  multiple  occasions  in  order  to  verify  construction 
progress,  SRF  program  compliance,  and  ARRA  compliance.  The  Nappanee  project  was  inspected  on  the 
following dates:  
                         March 11, 2010 (15% completion) 
                         May 7, 2010 (30% completion) 
                         October 7, 2010 (80% completion) 
                         March 16, 2011 (100% completion) 
                         May 4, 2011 (100% completion) 
                         May 16, 2011 (100% completion) 
        Through  the  development  and  implementation  of  the  aforementioned    comprehensive 
compliance  program,  IFA  strongly  believes  it  not  only  met  its  obligation  outlined  in  EPA  guidance  to 
“oversee  and  check  project  compliance”  of  ARRA  funded  projects  but  it  went  above  and  beyond  its 
obligation  to  help  ensure  that  its  SRF  borrowers  understood  and  complied  with  all  the  ARRA 
requirements,  including  the  Buy  American  requirements  that  have  proven  to  be  complicated  and  were 
issued well after many communities closed their ARRA loan, including the City of Nappanee. IFA believes 
that  the  inclusion  of  IFA  as  a  non‐compliant  party  in  regard  to  not  meeting  its  Buy  American 


12-R-0789                                                                                                       25
requirements  is  factually  inaccurate  and  respectfully  requests  that  the  references  made  to  “IFA”  in  the 
Draft  Report  should  be  removed  from  any  final  OIG  Site  Visit  Report  associated  with  the  City  of 
Nappanee’s project. See supporting State Revolving Fund Compliance documentation in Attachment A.  
 
II.  The  City  of  Nappanee  has  taken  significant  corrective  action  and  has  made  every  attempt  to  obtain 
additional documentation to support its compliance with the Buy American requirements.   
            
Project Background 
 
           The  Nappanee  Wastewater  Treatment  Plant  (WWTP)  Improvements  project  will  produce  water 
quality  and  environmental  benefits  by  correcting  a  deficiency  in  aerobic  sludge  treatment  and  sludge 
storage  capacity  at  the  WWTP,  as  well  as  replacing  an  inefficient  blower  system,  and  converting  the 
disinfection  process  from  chlorine  gas  to  ultra‐violet  disinfection  to  eliminate  a  potential  safety  hazard. 
The project went to bid on June 8, 2009 and received SRF financing on September 4, 2009. The notice to 
proceed  with  construction  was  issued  just  ten  days  after  loan  closing,  on  September  14,  2009  so  as  to 
meet the “shovel‐ready” requirements of ARRA.  
         The City of Nappanee met its due diligence requirement by working with its consultant engineer 
to  obtain  documentation  from  manufacturers  and  suppliers  to  demonstrate  compliance  with  the  Buy 
American  requirements  of  ARRA.  Untimely  and  evolving  EPA  guidance  related  to  documentation 
requirements  created  challenges  for  the  City  that  they  have  worked  diligently  to  address  by  contacting 
manufacturers,  suppliers,  and  vendors  and  engaging  in  a  very  time‐intensive  discussion  with  these 
parties in order to obtain primary and secondary Buy American documentation. Following OIG’s site visit 
in  May  2011,  the  City  has  taken  substantial  steps  to  correct  the  seven  (7)  identified  deficiencies.  As 
indicated  in  Table  One,  the  City  has  taken  further  action  by:  (a)  providing  updated  substantial 
transformation  documentation  for  five  (5)  of  the  seven  (7)  items;  and  by  (b)  replacing  two  (2)  non‐
compliant  products  with  Buy  American  compliant  products.   The  above  action  should  demonstrate  that 
the City has complied with its Buy American requirements.  
 




12-R-0789                                                                                                            26
  Table One: OIG Preliminary Findings and Action Taken 
   
                                                                                                    IFA Concur/Do Not
      Item           Manufacturer              Vendor                       Action                       Concur
   Positive                                                          Updated substantial
Displacement                                                           transformation
   Blowers                Kaeser             BL Anderson           documentation provided               Do Not Concur
                                                                                                        Do Not Concur
                                                                     Non-compliant item                  (Product in
  Mag Flow                                                       replaced with Buy American            compliance as of
   Meters                Siemens             BL Anderson          compliant item on 9/13/11                9/13/11)

                                                                     Updated substantial
  Square D                                All Phase Electric           transformation
   Panels           Schneider Electric        Supply Co.           documentation provided               Do Not Concur


                                                                                                        Do Not Concur

                                                                   Non-compliant item to be           (Product will be in
Peristaltic and                                                  replaced with Buy American          compliance no later
Hose Pumps           Watson-Marlow           BL Anderson               compliant item                   than 10/05/11)
                                                                     Updated substantial
  Check and         Kennedy (M & H)                                     transformation
 Gate Valves        Valve Company            BL Anderson           documentation provided               Do Not Concur
 Gate, Globe,
 Check, Ball,
Butterball, and                                                      Updated substantial
  Slo-closed                                Wayne Pipe                 transformation
    Valves          Milwaukee Valve       Supply Company           documentation provided               Do Not Concur
                                                                     Updated substantial
  Backflow                                  Wayne Pipe                 transformation
  Preventer              WATTS            Supply Company           documentation provided               Do Not Concur
   
  Listed  below  are  the  seven  (7)  items  identified  in  Table  One  with  further  explanation  of  the  steps  the 
  City has taken to comply with Buy American requirements. 
   
  Kaeser Positive Displacement Blowers 
            
             A  May  18,  2011  letter  provided  by  Kaeser  Compressors,  Inc.  to  the  City  of  Nappanee  clearly 
  describes  the  substantial  transformation  process  conducted  in  the  Fredericksburg,  Virginia  facility.  This 
  letter contains the specific labor and cost detail which was missing as of OIG’s site visit to the City in May 
  2011.  Kaeser  describes  the  substantial  transformation  process  as  requiring  16‐20  hours  of  build  time 
  and  that  the  Positive  Displacement  Blowers  contain  35‐50  percent  of  domestically  sourced  items. 
  Kaeser’s  substantial  transformation  process  was  confirmed  as  sufficient  for  Buy  American  compliance 
  purposes  by  Kirsten  Kroner  from  the  Drinking  Water  SRF  Team  Office  at  EPA  Headquarters  in 
  Washington,  D.C.  in  an  email  to  Stephan  Dagovitz  of  Kaeser  dated  November  1st,  2010.  IFA concurs  with 



  12-R-0789                                                                                                           27
EPA’s  analysis,  and  concludes  that  the  Kaeser  Positive  Displacement  Blowers  comply  with  Buy  American 
requirements. See supporting Kaeser documentation in Attachment B. 


OIG Response 9: See the “Results of Site Visit” and appendix A of this report for OIG
comments on Kaeser Positive Displacement Blowers.


Siemens Mag Flow Meters               
         A  September  2,  2011  letter  provided  by  BL  Anderson,  supplier  of  the  Siemens  Mag  Flow  Meter 
indicates  that  the  magnetic  flowmeter  transmitter,  standard  cabling,  and  remote  wall  mount  kit 
supplied  to  the  City  of  Nappanee  were  manufactured  in  Denmark.  The  transmitter,  cabling,  and  wall 
mount  kit  are  components  which  function  together  by  providing  flow  information  to  the  flow  meter 
itself.  These  items  are  provided  by  Siemens  as  a  set.  As  of  September  13th,  2011,  BL  Anderson  has 
removed  the  non‐compliant  transmitter,  cabling,  and  wall  mount  kit    and  replaced  them  with  a 
transmitter,  cabling,  and  wall  mount  kit  substantially  transformed  in  Springhouse,  Pennsylvania.  The 
transmitter  is  substantially  transformed  from  components,  including  circuit  boards  and  enclosures. 
Additional documentation describing the substantial transformation process is forthcoming. As such, IFA 
believes  that  the  Siemens  Mag  Flow  Meters  are  in  compliance  with  Buy  American  requirements.  See 
currently available Siemens documentation in Attachment C.  


OIG Response 10: See appendix A for OIG comments on Siemens Mag Flow Meters.


Square D Electrical Panels 
         Square  D  provided  substantial  transformation  documentation  to  the  City  of  Nappanee  dated 
August  30,  2011  which  adds  additional  detail  to  a  June  3rd,  2011  letter  previously  provided  to  OIG  by 
Commonwealth  Engineering.  Both  documents  describe  the  manufacturing  and  transformation  process 
at  the  Square  D  facility  in  Peru,  Indiana.  Square  D  employs  500  people  at  their  Peru  facility  where  the 
Electrical  Panels  are  transformed  in  a  process  that  takes  4.5  hours.  The  Electrical  Panels  contain 
approximately  75%  domestic  materials.  IFA  does  not  concur  with  OIG’s  preliminary  finding  that  Square 
D’s  documentation  is  insufficient,  and  believes  that  substantial  transformation  of  the  Electrical  Panels 
occurred  in  Peru,  Indiana.    Therefore,  IFA  believes  the  Electrical  Panels  meet  the  Buy  American 
requirements. See supporting Square D documentation in Attachment D.  


OIG Response 11: See appendix A for OIG comments on Square D Electric Panels.



12-R-0789                                                                                                             28
Watson‐Marlow Peristaltic Pump 
         Initially,  the  City  relied  on  the  assertions  of  Watson‐Marlow  in  a  letter  dated  April 23, 2009 that 
the pumps it supplied to the City complied with Buy American requirements because they fell under the 
North  America  Free  Trade  Agreement  (NAFTA);  however,  the  City  received  a  letter  from  the  supplier  of 
the  Watson‐Marlow  Pumps,  BL  Anderson,  on  May  25,  2011  stating  that  the  NAFTA  exemption  was 
misapplied  and  the  Watson‐Marlow  Pumps  (Pumps)  did  not  comply  with  Buy  American,  as  the  Pumps 
are  manufactured  in  the  United  Kingdom.  Per  a  September  14,  2011  email  from  BL  Anderson,  the  non‐
compliant  Pumps  will  be  replaced  with  Buy  American  compliant  Pulsafeeder  pumps  no  later  than 
October 5, 2011. The  new pumps have  been substantially transformed in a process involving inspection, 
machining,  assembly,  programming,  testing,  and  packaging  in  Punta  Gorda,  Florida  at  the  Pulsafeeder 
manufacturing facility. See currently available supporting Watson‐Marlow documentation in Attachment 
E.  Additional documentation describing the substantial transformation process is forthcoming.  


OIG Response 12: See appendix A for OIG comments on Watson-Marlow Peristaltic Pump.



Kennedy Valve (M&H) Company Check and Gate Valves 
         Kennedy Valve, M&H Valve, and Clow Valve are subsidiary companies of the McWane Company, 
and each company manufactures several kinds of valves which bear the company logo and name of each 
subsidiary. Documentation provided by Kennedy Valve, the manufacturer of the Check  and  Gate  Valves, 
to  the  City  of  Nappanee  on  September  2,  2011  describes  the  substantial  transformation  process  the 
Valves  undergo  at  the  Kennedy  Valve  manufacturing  facility  in  Elmira,  New  York.  The  Check  and  Gate 
Valves  contain  only  $15  worth  of  non‐domestic  components,  and  are  transformed  through  a  complex 
process  involving  melting  iron,  machining  castings,  and  assembling  the  final  product.  IFA  does  not 
concur  with  OIG’s  preliminary  finding  and  believes  that  the  Kennedy  Valve  transformation  process  is 
sufficiently  time,  labor,  and  cost  intensive  to  meet  EPA  standards,  and  that  the  Check  and  Gate  Valves 
comply  with  Buy  American  requirements.  IFA  believes  that  the  Kennedy  Valve  documentation  supports 
the City’s assertion that Valves have been substantially transformed in Elmira, New York. See supporting 
M & H Valve documentation in Attachment F.  


OIG Response 13: See appendix A for OIG comments on Kennedy Valve (M&H) Company
check and Gate Valves.



12-R-0789                                                                                                             29
Milwaukee Valve Gate, Globe, Ball, Butterball, and Slo‐closed Valves 
         Documentation  provided  to  the  City  of  Nappanee  by  Milwaukee  Valve  on  September  6,  2011 
provides  sufficient  detail  to  determine  that  substantial  transformation  of  Milwaukee  Valve  Gate,  Globe, 
Ball,  Butterball,  and  Slo‐closed  Valves  occurred  at  the  Prairie  du  Sac,  Wisconsin  manufacturing  facility. 
95%  of  the  Milwaukee  Valve  Gate,  Glob,  Ball,  and  Butterball,  and  Slo‐closed  Valves  are  domestically 
sourced,  and  the  substantial  transformation  process  takes  approximately  eight  (8)  hours.  IFA  does  not 
concur with OIG’s preliminary finding that documentation for the item is deficient, and believes that the 
Milwaukee  Valve  Gate,  Globe,  Ball,  Butterball,  and  Slo‐closed  Valves  comply  with  Buy  American 
requirements. See supporting Milwaukee Valve documentation in Attachment G.  


OIG Response 14: See appendix A for OIG comments on Milwaukee Value Gate, Glove, Ball,
Butterball, and Slo-closed Valves.


Watts Backflow Preventer 
         Documentation  provided  to  the  City  of  Nappanee  by  Watts  on  September  8,  2011  provides 
sufficient  detail  to  determine  that  substantial  transformation  of  the  WATTS  Backflow  Preventer 
occurred  in  the  manufacturing  facility  of  a  Watts’  subsidiary,  Ames  Fire  &  Waterworks,  in  Woodland, 
California.  The  Backflow  Preventer  contains  75%‐80%  domestic  materials  and  the  substantial 
transformation  process  requires  multiple  complex  processes  to  fabricate  and  manufacture  the  product 
using  highly  skilled  laborers.  Therefore,  IFA  does  not  concur  with  OIG’s  preliminary  finding  and  believes 
that  Watts  has  complied  with  Buy  American  requirements.  See  supporting  Watts  documentation  in 
Attachment H.  


OIG Response 15: See appendix A for OIG comments on Watts Backflow Preventer.


Conclusion 
         The  IFA  has  met  its  obligation  under  ARRA  to  provide  compliance  oversight  to  the  City  of 
Nappanee, Indiana by requiring signed ARRA certifications from the City, its consultant engineer, and its 
contractor. These certifications describe all ARRA‐related requirements in detail, including Buy American 
and  require  that  the  certifying  party  acknowledge  and  adhere  to  these  requirements  throughout  the 
project.  IFA  further  verified  compliance  by  reviewing  manufacturer  documentation,  and  providing 
suggestions to the City to improve documentation in adherence to evolving EPA Buy American guidance. 



12-R-0789                                                                                                           30
IFA  visited  the  Nappanee  Wastewater  Treatment  Plant  Improvements  Project  several  times  throughout 
construction,  and  after  the  project  was  complete.  Because  these  efforts  are  above  and  beyond  IFA’s 
requirement  to  “provide  oversight  and  check  project  compliance,”  any  reference  to  IFA  as  a  non‐
compliant  party  is  factually  inaccurate.  IFA  respectfully  requests  that  references  to  “IFA”  as  a  non‐
compliant party are removed from the final OIG Site Visit Report. 


OIG Response 16: We acknowledge IFA’s compliance program, outlined in the above response,
to meet EPA’s guidance to “oversee and check project compliance” of Recovery Act–funded
projects and the challenges encountered with the Buy American requirements. The purpose of
our review was to determine whether the City of Nappanee complied with selected requirements
of the Recovery Act. We did not perform a detailed review of IFA’s roles and responsibilities or
work performed to assure compliance on the Nappanee project. We modified our final report
based on IFA’s comments to the draft report and removed the reference to IFA as a
noncompliant party.


         In  addition,  IFA  believes  that  the  City  of  Nappanee  has  worked  diligently  to  comply  with  its 
obligation  regarding  the  Buy  American  requirements.  The  City  has  provided  updated  manufacturer 
documentation  proving  that  substantial  transformation  has  occurred  in  the  United  States  for  five  (5)  of 
the  seven  (7)  deficient  items  identified  by  OIG  in  their  Draft  Report.  The  non‐compliant  components  of 
the  Siemens  Mag  Flow  Meters  have  been  replaced  and  the  non‐compliant  Watson‐Marlow  Pumps  will 
be  replaced  with  Buy  American  compliant  products  thereby  satisfying  Buy  American  requirements.   IFA 
believes  that  the  City  will  be  found  to  have  met  its  Buy  American  requirements  on  all  deficient  items 
listed in the Draft Report. 
          
         Thank you for the opportunity to respond to the Draft Report. If you have any questions, please 
contact me at 317‐234‐2916.  
          
Sincerely, 
 
James P. McGoff 
Director of Environmental Programs 
Indiana Finance Authority 
 
Attachments 
Attachment A: State Revolving Fund Compliance Documentation 
Attachment B: Kaeser Documentation 


12-R-0789                                                                                                          31
Attachment C: Siemens Documentation 
Attachment D: Square D Documentation 
Attachment E: Watson‐Marlow Documentation 
Attachment F: Kennedy (M&H) Valve Documentation 
Attachment G: Milwaukee Valve Documentation 
Attachment H: WATTS Documentation 
 
cc:	    Steve Marquardt, Chief, Section 2, State and Tribal Programs Branch, Region 5 (sent via email) 
        Laura Cossa, State Program Lead, State and Tribal Programs Branch, Region 5 (sent via email) 
        Honorable Larry Thompson, Mayor, City of Nappanee, Indiana (sent via email) 
        Gale Gerber, Utilities Manager, City of Nappanee, Indiana (sent via email) 
        Al Stong, Project Manager, Commonwealth Engineers, Inc. (sent via email) 
        Brady Dryer, Compliance Manager, Commonwealth Engineers, Inc. (sent via email) 
        Kendra W. York, Public Finance Director, Indiana Finance Authority  
        Deborah  Wright,  General  Counsel,  State  Revolving  Fund  Loan  Program,  Indiana  Finance 
        Authority 




12-R-0789                                                                                               32
                                                                            Appendix C

                                    Distribution
Office of the Administrator
Regional Administrator Region 5
Assistant Administrator for Water
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
    Office of Administration and Resources Management
Audit Follow-Up Coordinator, Region 5
Public Affairs Officer, Region 5
Director, Water Division, Region 5
Chief, State and Tribal Programs Branch, Region 5
Public Finance Director, Indiana Finance Authority, Indiana
Mayor, City of Nappanee, Indiana
Superintendent/Manager, Waste Water Utilities, City of Nappanee, Indiana




12-R-0789                                                                           33
